   September 30, 2005




Financial Management

Report on Development of the DoD
Baseline for Military Equipment
(D-2005-114)




                   Department of Defense
                  Office of Inspector General

                                    Constitution of
                                   the United States

      A Regular Statement of Account of the Receipts and Expenditures of all public
      Money shall be published from time to time.
                                                              Article I, Section 9
 Additional Copies

 To obtain additional copies of this report, visit the Web site of the Department of
 Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
 Secondary Reports Distribution Unit, Audit Followup and Technical Support at
 (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

 Suggestions for Future Audits

 To suggest ideas for or to request future audits, contact Audit Followup and
 Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
 Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                     Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704




Acronyms

AT&L                 Acquisition, Technology, and Logistics
CAMS-ME              Capital Asset Management System - Military Equipment
CFO                  Chief Financial Officer
DFAS                 Defense Finance and Accounting Service
FFMIA                Federal Financial Management Improvement Act
FMR                  Financial Management Regulation
GAO                  Government Accountability Office
OMB                  Office of Management and Budget
PMO                  Program Management Office
RDT&E                Research, Development, Test and Evaluation
SFFAS                Statement of Federal Financial Accounting Standards
USD                  Under Secretary of Defense
USSGL                United States Standard General Ledger
                                INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                            ARLINGTON, VIRGINIA 22202-4704




                                                                     September 30,2005
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY AND LOGISTICS/ACQUISITION
                 RESOURCES AND ANALYSIS
               UNDER SECRETARY OF DEFENSE
                 (C0MPTROLLER)lCHIEFFINANCIAL OFFICER

Subject: Report on Development of the DoD Baseline
         for Military Equipment (Report No. D-2005-114)


      We are providing this report for review and comment. We considered
management comments on the draft report when preparing the final report.
      DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics
comments were partially responsive. We request additional comments on
Recommendations A. 1, A.2, A.3, D, and E by October 30,2005.
       If possible, please send management comments in electronic format (Adobe
Acrobat file only) to AudDFS@dodig.osd.mil. Copies of the management comments
must contain the actual signature of the authorizing official. We cannot accept the
I Signed I symbol in place of the actual signature. If you arrange to send classified
comments electronically, they must be sent over the SECRET Internet Protocol Router
Network (SIPRNET).
        We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Barbara A. Sauls at (703) 325-5782 (DSN 221-5782) or Mrs. Alice F. Carey at
(703) 325-6839 (DSN 221-6839). The team members are listed inside the back cover.
For the report distribution, see Appendix E.
                               By direction of the Deputy Inspector General for Auditing:



                                      ,--
                                      Assistant Inspector General
                                      Defense Financial Auditing
                                                Service
                   Department of Defense Office of Inspector General
Report No. D-2005-114                                                September 30, 2005
   (Project No. D2005-D000FH-0033.001)

                               Development of the DoD Baseline
                                   for Military Equipment

                                         Executive Summary

Who Should Read This Report and Why? This report is intended for use by officials in the
Property and Equipment Policy Office (Policy Office) in the Office of the Under Secretary of
Defense for Acquisition, Technology, and Logistics. The report discusses the adequacy of the
methodology for determining the value of military equipment.

Background. The Policy Office requested that we perform this examination to review the
methodology it developed to accurately identify and value all military equipment. This is the
second of two reports about the methodology the Policy Office developed. The first report
discussed the agreed-upon procedures, auditor actions, and results. This one discusses the
significant auditor findings, conclusions, and recommendations.

To meet the objective of obtaining a clean audit opinion, DoD must comply with all government
accounting standards, including Statement of Federal Financial Accounting Standard No. 23,
“Eliminating the Category of National Defense Property, Plant, and Equipment,” May 2003,
which requires DoD to include the cost of its military equipment on the DoD Balance Sheet. To
comply with the new standard, the Policy Office developed and began implementing a
conceptual model that described the business and systems process requirements DoD believed
were needed to accurately value, depreciate, and financially report military equipment. The
first phase of the conceptual model, the baseline valuation, was primarily a manual effort to
determine the historical cost for military equipment as of September 30, 2006.

Results. The Policy Office methodology did not properly support the cost of recently acquired
military equipment. As a result, the Policy Office effort may produce financial statement values
that will not adequately address DoD decision makers’ information needs. The Deputy Director
of the Policy Office should determine the availability of source documentation to support the
valuation and use this available historical cost supporting documentation to value military
equipment. (finding A)

To properly update the military equipment baseline, the Policy Office will have to overcome
significant challenges related to system capabilities, acquisition valuation data, asset quantity
data, and personnel training. As a result, the Policy Office risks not being able to update the
baseline value of military equipment successfully by the aggressive target date of September 30,
2006. The Deputy Director of the Policy Office should identify specific milestones that would
address the risks involved in updating the baseline value of military equipment and regularly
report the status of the milestones to the Under Secretary of Defense (Comptroller/Chief
Financial Officer) and the Under Secretary of Defense for Acquisition, Technology, and
Logistics. Those Under Secretaries should use the status reports to assess whether the
Department is likely to meet its goal of a military equipment baseline value, and revise the
target date until the Department has implemented a fully tested and integrated system, including
the necessary interfaces and portals, that is capable of updating and sustaining the baseline
value of military equipment. (finding B)

In addition, the Policy Office used a methodology that was not in accordance with generally
accepted accounting principles to capitalize and depreciate modification costs. As a result, the
baseline valuation model incorrectly calculated the estimated net book value of military
equipment programs with modifications. The Deputy Director of the Policy Office should
revise the baseline valuation methodology to use either the “capitalization per end item” or
“capitalization as a separate item” approach to capitalize and depreciate military equipment
modifications or both. (finding C)

Further, we could not verify the validity of 12 of the 29 waivers in our sample. Without
verifying the validity of the waivers, we could not ensure that the military equipment universe
included all valid programs and excluded all invalid programs, which could cause the value of
military equipment to be misstated in the financial statements. The Deputy Director of the
Policy Office should verify the validity of the waivers before acceptance, and accept the waiver
only if the program managers have provided adequate supporting documentation to allow
independent verification. (finding D)

Finally, the Policy Office used a questionnaire that did not require the program manager to
affirm support for the valuation amounts that the Policy Office had calculated for the military
equipment programs. The military equipment valuation amount may be more reliable with a
signed attestation. The Deputy Director of the Policy Office should require program managers
to sign attestations to affirm their concurrence with the accuracy and validity of the military
equipment valuation amount for their respective programs. (finding E) See the Findings
section of the report for the detailed recommendations.

Management Comments. The Director of the Acquisition Resources and Analysis Office
concurred with four of the recommendations, nonconcurred with two of the recommendations,
and partially concurred with four of the recommendations. See the Finding section of the report
for a discussion of the management comments and the Management Comments section of the
report for the complete text of the comments. We request that the Director provide comments
on the final report by October 30, 2005.

Management Actions. During the engagement, we developed and submitted to the Policy
Office three issue papers discussing the lack of source documentation for recently acquired
military equipment, concerns with the update methodology, and deficiencies in the baseline
approach. In response, the Policy Office began implementing corrective actions to resolve the
issues. Specifically, the Policy Office began holding meetings with Defense Finance and
Accounting Service field offices to determine the availability of historical cost documentation.
Additionally, the Policy Office revised the baseline update methodology and incorporated an
attestation requirement into the valuation process. The Policy Office also prepared a draft
position paper that described a revised methodology to value modifications.




                                             ii
Table of Contents

Executive Summary                                                             i

Background                                                                    1

Objectives                                                                    2

Findings
     A.    Support for Military Equipment Valuations                          3
     B.    Updates to the Military Equipment Baseline                         9
     C.    Accounting for Modifications to Military Equipment                17
     D.    Waivers to Military Equipment Valuation                           21
     E.    Program Management Office Attestation                             25


Appendixes
     A.    Scope and Methodology                                             28
     B.    Prior Coverage                                                    30
     C.    Glossary of Technical Terms                                       31
     D.    Waiver Types                                                      34
     F.    Report Distribution                                               35

Management Comments
     Office of the Under Secretary of Defense for Acquisition, Technology,
        and Logistics                                                        37
Background
    This is the second of two reports that discuss agreed-upon procedures we used to
    review the development of the DoD baseline for military equipment. This report
    provides a detailed discussion of significant issues related to:

           •   source documentation,

           •   updates to the military equipment baseline,

           •   accounting for modifications,

           •   waivers to military equipment valuation, and

           •   attestations of valuations.

    Conceptual Model. To meet the objective of obtaining a clean audit opinion,
    DoD must comply with all government accounting standards, including Statement
    of Federal Financial Accounting Standard (SFFAS) No. 23, “Eliminating the
    Category of National Defense Property, Plant, and Equipment,” May 2003, which
    requires DoD to include the cost of its military equipment on the DoD Balance
    Sheet. Therefore, the Office of Secretary of Defense developed and has been
    implementing a conceptual model that describes the business processes and
    systems requirements DoD believes are needed to accurately value, depreciate,
    and financially report military equipment. The model consists of three phases: the
    Baseline Valuation, the Midterm Solution, and the implementation of the
    Business Enterprise Architecture.

            Baseline Valuation. The first phase of the conceptual model, the baseline
    valuation, is a manual effort to determine the historical cost for military
    equipment acquired as of September 30, 2006. The Property and Equipment
    Policy Office (Policy Office) in the Office of the Under Secretary of Defense for
    Acquisition, Technology, and Logistics plans to use information derived from
    acquisition and budget documents to periodically update and record a single set of
    adjusting accounting entries during the fourth quarter of FY 2006.

            Midterm Solution. The next phase, the Midterm Solution, will leverage
    existing systems and processes to maintain the baseline valuations, manage
    work-in-process, and calculate cost for military equipment acquired after
    September 30, 2006. The midterm solution will capture cost as it is incurred at
    the transaction level by contract. According to the Policy Office, the midterm
    system solution would be based on Cabrillo, the Department of the Navy’s
    Capital Asset Management System and would be known as Capital Asset
    Management System - Military Equipment (CAMS-ME).

            Business Enterprise Architecture. The Policy Office has scheduled the
    final phase, the Business Enterprise Architecture implementation, to begin around
    FY 2012. Once implemented, data will be entered only once and flow seamlessly
    through systems and across functional areas to support DoD business needs and
    processes. To lead the effort of developing and implementing a Business


                                             1
    Enterprise Architecture conceptual model, the Under Secretary of Defense (USD)
    for Acquisition, Technology, and Logistics (AT&L) and the USD
    (Comptroller)/Chief Financial Officer created the Property and Equipment Policy
    Office. The Policy Office will establish policies to properly record and value
    military equipment. The Policy Office is responsible for developing future and
    interim architecture requirements, policies, and system solutions and a transition
    plan to achieve compliant financial accounting and reporting for military
    equipment. To assist in the baseline phase, the Policy Office hired KPMG, a
    public accounting firm, to assist DoD Components with establishing and
    sustaining the historical cost baseline. Among other tasks, the Department
    contracted with KPMG to assist as follows.

           •   to develop and implement business rules and policies that relate to
               valuing military equipment in accordance with generally accepted
               accounting principles, Department regulations, and other applicable
               laws and regulations

           •   to identify data requirements that need to be embedded in the
               Enterprise Data Model

           •   to develop an auditable historic cost baseline by conducting individual
               program valuations and preparing related documentation packages that
               meet all audit requirements

           •   to implement processes and systems for capturing, maintaining, and
               updating the military equipment values for DoD Components

           •   to support project management of the systems solution and the further
               development of requirements and business processes as well as the
               analysis and design of the CAMS interfaces with the Military
               Departments


Objectives
    Our overall audit objective was to evaluate the development of the DoD baseline
    for military equipment valuation. Specifically, we evaluated whether the
    valuations of military equipment that the Office of the Secretary of Defense had
    completed and the waiver criteria that it used to exclude projects from the
    valuation process were supportable. We also performed procedures to evaluate
    whether the military equipment universe was complete. In addition, we reviewed
    whether the baseline that the Policy Office was developing for military equipment
    adequately addressed DoD decision makers’ information needs. See Appendix A
    for a discussion of the scope and methodology and Appendix B for prior coverage
    related to the objectives. Appendix C is a glossary of technical terms used in this
    report.




                                         2
           A. Support for Military Equipment
              Valuations
           The Policy Office did not properly support the cost of recently acquired
           military equipment because personnel did not use historical supporting
           documentation to value the recently acquired or modified military
           equipment. Instead, they used data obtained from various financial,
           acquisition, and logistics systems. The use of alternative data was proper
           when obtaining initial historical costs was not practical; however,
           historical documentation should have been available on equipment that
           was acquired recently. Use of alternative data sources when historical
           documentation should have been available may produce financial
           statement values that will not adequately address DoD decision makers’
           information needs.


Document Retention Policy
    Statement of Federal Financial Accounting Standards. The Financial
    Accounting Standards Advisory Board SFFAS No. 23, “Eliminating the Category
    National Defense Property, Plant, and Equipment,” May 2003, requires that initial
    capitalization of military equipment assets, including any major improvements
    and modifications, be “based on initial historical cost” in accordance with the
    asset recognition provisions of SFFAS No. 6, “Accounting for Property, Plant,
    and Equipment,” June 1996, as amended. SFFAS No. 23 recognizes that
    determining initial historical cost may not be practical for items acquired many
    years before the effective date of this standard. If obtaining initial historical cost
    is not practical, estimated historical cost may be used. The basis for estimating
    historical costs may include budget, appropriation, or engineering documents and
    other reports reflecting amounts expended. SFFAS No. 23 establishes the
    financial reporting requirement for military equipment, effective for accounting
    periods beginning after September 30, 2002.

    Records Retention. The Federal Acquisition Regulation, Subpart 4.805, and the
    National Archives and Records Administration, General Records Schedule No. 3
    require that historical records for contracts that exceed the acquisition threshold,
    such as military equipment contracts, be retained 6 years and 3 months after final
    payment.

    DoD Guidance. The DoD Financial Management Regulation (FMR), volume 5,
    chapter 21, “Disbursing Office Records,” March 2003 and volume 4, chapter 6,
    “Property, Plant, and Equipment,” August 2000 provide guidance concerning
    supporting documentation retention. Volume 5, chapter 21, designates a retention
    period of 6 years and 3 months.

            DoD FMR, volume 4, chapter 6, “Property, Plant, and Equipment,”
    August 2000 states that original documentation must be maintained in a readily
    available location during the applicable retention period to permit the validation
    of information pertaining to the asset, such as acquisition cost, acquisition date,


                                          3
            and cost of improvement. The regulation further states that supporting
            documentation includes purchase invoices, sales and procurement contracts,
            DD Form 1354 “Transfer and Acceptance of Military Real Property,”
            ENG Form 3013 “Work Order/Completion Report,” construction contracts, and
            work orders generated independently of the entity in possession of the property.


Documentation Used to Support Costs
            As of August 27, 2004, the Policy Office had reviewed 326 programs. We
            judgmentally selected 16 of those programs for review. Later, we selected an
            additional 6 programs from one of our site visits, for a total of 22 programs. Of
            the 22 programs, 8 programs contained 2 or more parts. As a result, we reviewed
            a total of 48 programs and subprograms. Of the 48 programs and subprograms,
            the Policy Office completed 19 program valuations and granted waivers for 29.

            We reviewed the 19 sample items with valuations to determine the reasonableness
            and accuracy of the valuations. The Policy Office had supported none of the
            valuations with proper documentation as defined in the DoD FMR. The Policy
            Office had not based the valuations for recent acquisitions on initial historical cost
            data, which should have been available. Further, SFFAS No. 23 was effective for
            accounting periods beginning after September 30, 2002. Consequently, DoD
            should have had documentation available to support transactions involving the
            military equipment acquisitions after that date.


Military Equipment Valuation Data Sources
            Military Equipment Purchased Before SFFAS No. 23. The Policy Office
            properly used data obtained from various financial, acquisition, and logistics
            systems to value military equipment purchased before September 30, 2002.
            Obtaining initial historical costs was not practical for determining the value of
            this equipment. The Policy Office used the P-1 Budget Report1 and the DoD
            Selected Acquisition Reports2 as supporting documentation in valuing many of
            the programs. These documents were readily available and did not require the
            time and effort to research and identify available documentation that would
            properly support the valuation. The Policy Office personnel also used various
            financial, acquisition, and logistics systems to compile the data for the valuation
            calculation.

            Military Equipment Purchased After SFFAS No. 23. The Policy Office used
            data obtained from various financial, acquisition, and logistics systems to support
            recent acquisition values, when historical cost supporting documentation should

1
    The P-1 is provided annually to the DoD oversight committee of the Congress coinciding with transmittal
     of the President’s Budget. The P-1 line items represent funding for active procurement programs per
     budget year.
2
    The Selected Acquisition Report summarizes the latest estimates of cost, schedule, quantities, and
     technical status for major defense acquisition programs.



                                                        4
           have been available. While using various sources made it easier to compile the
           data, it was improper and did not ensure that the resulting valuation was accurate
           and consistent with primary source documents. The Policy Office needed to
           ensure the system data used to value military equipment assets were accurate and
           consistent with the historical cost support documents. Accepting military
           equipment program costs provided by program offices without further verification
           assumed that the financial, acquisition, and logistics system information was
           reliable and accurate. DoD and the Government Accountability Office (GAO)
           have issued reports that question the accuracy of DoD financial system data.

                   DoD Performance and Accountability Report for FY 2003. In its
           Performance and Accountability Report for FY 2003, DoD states in the
           Management, Discussion, and Analysis Section that “…most legacy property and
           logistics systems are not integrated with acquisition and financial systems and
           were not designed to capture the acquisition cost, cost of modifications and
           upgrades, or to calculate depreciation.”3 In the Notes Section, Note No. 10, DoD
           states the following.

                   The Department has determined that it is not practical at this time to
                   accumulate from internal records the information necessary to value
                   military equipment in accordance with generally accepted accounting
                   principles, because the Department is currently working to revise its
                   accounting processes and systems to support the informational needs of
                   management and compliance with generally accepted accounting
                   principles. In the interim the Department will base the values of
                   military equipment for financial statement presentation purposes on
                   data provided by the Bureau of Economic Analysis (BEA), Department
                   of Commerce. The data provided by BEA consists of investment and
                   net book value data for 84 groups of equipment such as aircraft, ships
                   and combat vehicles. BEA uses Department budget data for equipment
                   acquisitions and actual quantities of equipment items delivered to
                   calculate the Department’s annual investment in equipment.

                   Government Accountability Office. In GAO Report No. GAO-04-615,
           “DoD Business Systems Modernization: Billions Continue to Be Invested with
           Inadequate Management Oversight and Accountability,” May 2004, GAO stated,
           “DoD does not have the ability to produce accurate, reliable, and timely
           information to make sound decisions and accurately report on its billions of
           dollars of inventory and other assets.” The report further stated that because of
           these problems, the recorded cost of property, plant, and equipment acquired in
           recent years in DoD financial systems may not be reliable.


Conclusion
           The guidance allows DoD to use financial, acquisition, and logistics systems data
           for estimating the value of military equipment acquired in an environment in
           which the historical records were not required to be retained. However, the

3
    DoD Performance and Accountability Report for FY2003, Management Discussion and Analysis Section.



                                                     5
    Policy Office used that methodology for estimating the value of military
    equipment acquired in an environment in which the historical records should have
    been available. If DoD relies on systems data that it states may not be accurate,
    reliable, and timely, it is reasonable to expect that the military equipment
    valuation based on the data also may not be accurate, reliable, and timely. In
    addition, future financial statement note disclosures will be required to indicate
    that DoD has not complied with the requirements of SFFAS No. 23, the DoD
    FMR, or its proposed methodology because it values military equipment from
    estimates when actual historical cost supporting documentation should be
    available. To produce reliable financial statement values, DoD must properly
    support the cost of recently acquired military equipment with available historical
    supporting documentation.


Management Actions
    During the engagement, we prepared an issue paper that discussed the lack of
    source documentation and submitted it to the Policy Office. In response, the
    Policy Office stated that it planned to trace a sample of expenditure transactions
    to the supporting documents. It began meeting with Defense Finance and
    Accounting Service (DFAS) representatives to gain an understanding of the best
    approach for tracing transactions to source documentation and then stated that, as
    a result of those meetings, it would select a sample of documents and would
    verify the support. In March 2005, the Policy Office began identifying the
    programs it will use to demonstrate that the values developed as part of the
    Military Equipment Valuation project are traceable to the associated supporting
    documentation.


Recommendations, Management Comments, and Audit
  Response
    Revised Recommendations. As a result of management comments, we revised
    Recommendations A.2. and A.3. to clarify the issue that actual historical cost
    information is required to value military equipment acquired during a period
    when the cost information should have been available.

    The Director, Acquisition Resources and Analysis provided comments that
    included comments from the Deputy Director of the Property and Equipment
    Policy Office.

    A. We recommend that the Deputy Director of the Property and Equipment
    Policy Office in the Office of the Under Secretary of Defense for Acquisition,
    Technology, and Logistics:

           1. Determine the availability of source documentation to support the
    valuation.




                                         6
Management Comments. The Director concurred, stating that the Policy Office
will determine the availability of appropriate supporting documentation. In
addition, the Policy Office will determine whether it is practical to accumulate the
information to support transactions that occurred after the effective date for
SFFAS No. 23. However, the Director voiced concerns about the practicality of
locating documentation to support the cost of many equipment programs.

Auditor Response. The Director’s comments were partially responsive. SFFAS
No. 23 recognizes that determining initial historical cost may not be practical for
items acquired many years before the effective date of the standard. However, the
Federal Acquisition Regulation, the National Archives and Records
Administration, and the DoD FMR require the retention of contract
documentation. Consequently, when DoD asserts that it is ready for audit, it
should be asserting that documentation is available to support transactions
involving military equipment acquisitions after the standard’s effective date, as a
minimum. We request that the Director reconsider her position on the importance
of locating documentation to support cost of equipment acquired after SFFAS
No. 23 became effective, and provide comments on the final report.

       2. Use available historical cost supporting documentation in its
methodology to value recently acquired military equipment and use other
source documents only if historical cost supporting documentation is not
available and obtaining it is not practical.

Management Comments. The Director partially concurred, stating that SFFAS
No. 23 provides for the use of alternative data sources if obtaining initial
historical cost is not practical. The Director further stated that when her office
defines “appropriate supporting documentation,” it will determine the availability
of such documentation. She stated that her office will determine whether it is
practical to accumulate the information to support transactions that occurred after
the standard’s effective date.

Auditor Response. The Director’s comments were partially responsive. As
reiterated in the management comments the two key concepts of SFFAS No. 23
are the availability of documentation and the practicality of accessing it. We
agree that the standard provides for the use of alternative data sources when
obtaining initial historical cost is not practical. However, we also interpret the
intent of the standard to mean that recent source documentation will be available
and that it will be practical to obtain access to it. The Federal Acquisition
Regulation, the National Archives and Records Administration, and the DoD
FMR all require that supporting documentation be retained 6 years and 3 months
after final contract payment. In addition, the DoD FMR requires that original
documentation be maintained in a readily available location during the applicable
retention period to permit the validation of information pertaining to the asset,
such as acquisition cost, acquisition date, and cost of improvement. Collectively,
this guidance provides an opportunity for DoD to establish a documentation
retention program that ensures support for financial transactions is readily
accessible. We request that the Director reconsider her position on the availability
of support documentation and provide comments on the final report.




                                     7
        3. Disclose in the financial statement notes that DoD did not comply
with the requirements of Statement of Federal Financial Accounting
Standard No. 23, if DoD uses estimates in lieu of actual historical cost
information to value military equipment acquired during a period when the
cost information should have been available.

Management Comments. The Director nonconcurred stating that the
methodology the P&E Policy Office used for valuing programs was in full
compliance with this standard.

Auditor Response. The Director’s comments were nonresponsive. SFFAS
No. 23 allows DoD to use financial, acquisition, and logistics systems data for
estimating the value of military equipment acquired in an environment in which
the historical records were not required to be retained. However, the Policy
Office used that methodology for estimating the value of military equipment
acquired recently. The historical records for that equipment should have been
available. Therefore, the methodology was not in full compliance with SFFAS
No. 23. We request that the Director reconsider her position on the P&E Policy
Office’s compliance with SFFAS No. 23 and the document retention guidance,
and provide comments on the final report.




                                    8
           B. Updates to the Military Equipment
              Baseline
           The Policy Office will have to overcome significant challenges to properly
           update the military equipment baseline value as of September 30, 2006.
           Those challenges relate to:

                  •   system capabilities,

                  •   acquisition valuation data,

                  •   asset quantity data, and

                  •   personnel training.

           The challenges exist because the Department did not have financial and
           accountability systems that could provide accurate and timely information.
           To overcome these challenges, the Policy Office depended on the
           participation of organizations beyond its direct control - the Naval Space
           and Warfare Systems Center, DFAS, the Program Management Offices
           (PMOs), and the Military Department Financial Management
           Components. As a result of these challenges and reliance on organizations
           beyond its control, the Policy Office is at a high risk of not being able to
           update the baseline value of military equipment successfully by the
           aggressive September 30, 2006, baseline date.


Financial Management System Policy
    Chief Financial Officers Act of 1990. The Chief Financial Officers (CFO) Act
    of 1990 requires that an agency CFO develop and maintain an agency financial
    management system that complies with applicable accounting principles,
    standards, and requirements; internal control standards; and other policies and
    requirements prescribed by the Office of Management and Budget (OMB). The
    agency financial management system must provide complete, reliable, consistent,
    and timely information for reporting.

    Federal Financial Management Improvement Act of 1996. The Federal
    Financial Management Improvement Act (FFMIA) of 1996 provides for
    consistent accounting by an agency from one fiscal year to the next and uniform
    accounting standards throughout the Federal Government. The FFMIA also
    requires improvement in the performance, productivity, and efficiency of Federal
    Government financial management, and the establishment of financial
    management systems to support controlling the cost of the Federal Government.
    The FFMIA of 1996 requires each agency to implement and maintain financial
    management systems that comply substantially with Federal financial
    management systems requirements, applicable Federal accounting standards, and
    the United States Standard General Ledger (USSGL) at the transaction level.



                                        9
    Office of Management and Budget Circular A-127. OMB Circular A-127
    revised, “Financial Management Systems,” July 23, 1993, prescribes policies and
    standards for agencies to follow in developing, operating, evaluating, and
    reporting on financial management systems. The OMB Circular states that
    financial management systems should be designed to provide for effective and
    efficient interrelationships between software, hardware, personnel, procedures,
    controls, and data contained within the systems. The OMB Circular also states
    that integrated financial management systems should contain common data
    elements, common transaction processes, consistent internal control, and efficient
    transaction entry. Compliance with this standard requires that data in financial
    reports be consistent with the USSGL, transactions be recorded consistent with
    the USSGL rules, and supporting transaction detail for USSGL accounts be
    readily available. Financial management systems should maintain accounting
    data to permit reporting of financial data in accordance with accounting standards
    recommended by the Financial Accounting Standards Advisory Board and
    standards issued by the Director of OMB, and the reporting requirements issued
    by the Director of OMB and the Secretary of the Treasury.


Baseline Update Methodology
    To overcome existing challenges and update the military equipment baseline, the
    Policy Office will need the assistance of the Naval Space and Warfare Systems
    Center to adapt the Navy’s pilot system, Cabrillo, into the Capital Asset
    Management System - Military Equipment (CAMS-ME). The Policy Office will
    also need the cooperation of DFAS to update the required expenditure data. In
    addition, the Policy Office would need the cooperation of DoD Components to
    meet the challenges related to asset quantity data.

    The Policy Office has developed target dates for the baseline update process. For
    example, the Policy Office has set a target date of June 1, 2006, for development
    of interfaces. We suggest the Policy Office further develop those target dates into
    milestones that DoD management can use to assess the risk that the Department
    will not meet its goal for a September 30, 2006, baseline.

    System Capabilities. The methodology proposed by the Policy Office requires a
    system capable of updating the initial program valuations as of FY 2006 and
    maintaining the values until the long-term solution is implemented. The new
    system will need to meet the following requirements:

           •   Comply with all statutory and regulatory directions, including the:

                   − CFO Act of 1990,

                   − Federal Financial Management Improvement Act of 1996, and

                   − OMB Circular A-127.

           •   Account for military equipment in accordance with generally accepted
               accounting principles and the DoD FMR.


                                        10
           In addition, according to the Policy Office ), the system will need to meet the
           following requirements:

                   •    Recompute the program values with the data collected during the
                        initial program valuations as well as the updated cost and asset
                        information.

                   •    Summarize the results for financial reporting purposes so that DFAS
                        can prepare the journal entries and footnotes for the financial
                        statements.

           According to the Policy Office , the midterm systems strategy for the Department
           builds on the Department of the Navy’s Capital Asset Management System. The
           new system would be known as CAMS-ME and would be based on Cabrillo, an
           Enterprise Resource Planning4 solution implemented for the Space and Naval
           Warfare Systems Command.

           The Policy Office intends that the CAMS-ME will support three functional areas:
           item acceptance and work-in-process, military equipment valuation, and fixed
           asset accounting. The Policy Office planned to implement CAMS-ME in three
           evolutionary or spiral increments of capability.

                  Increment 1. Increment 1 will focus on automating the spreadsheet-based
           process for calculating the baseline valuations, updating the baseline in FY 2006,
           and maintaining the historical cost values. It will be operational by October 1,
           2005.

                  According to the Policy Office, Increment 1-Enhanced, which it plans to
           deploy by June 1, 2006, would also include an interface with the DFAS Corporate
           Database to collect expenditure information. The DFAS Corporate Database is
           the central storage point for all shared data within DFAS.

                  Increment 2. Increment 2 would focus on calculating asset values at the
           contract level and would be operational by October 1, 2006.

                  Increment 3. Increment 3 would focus on automating the interfaces
           necessary for calculating the “full cost” of an asset on an individual-item basis
           and would be operational by October 1, 2008.

           Acquisition Valuation Data. To bring the program values current as of the end
           of FY 2006, the Policy Office would have to obtain updated expenditure data for
           the period between the date of the original program valuations and September 30,
           2006. According to the Policy Office, it planned to develop an automated
           interface with the DFAS Defense Corporate Database with a target date of June 1,
           2006. However, the Policy Office did not plan to begin operational testing of the
4
    Enterprise Resource Planning (ERP) refers to a broad set of business process solutions that integrate
    the operational components of an organization. ERP enables business process re-engineering, focuses on
    industry common best practices, and facilitates process improvements. ERP systems provide
    integrated applications supporting the operations of an enterprise, such as human resources,
    financial data, sales, planning, purchasing, maintenance, inventory control, customer
    relationship management, and supplier relationship management.


                                                     11
    interface until May 2006 and expected to continue testing the interface through
    the “soft” or trial closing in June 2006. According to the Policy Office, if
    development delays occur, the Policy Office could request that DFAS provide the
    expenditure information in a read file that could be loaded into the new system to
    update the initial program values.

    Asset Quantity Data. Because the program valuations must account for
    additions and deletions of end items that occur after the initial valuations, the
    Policy Office must update the quantity of assets. The Policy Office proposes that
    the Components be responsible for ensuring that the asset quantity data are valid.
    The Policy Office also proposes that the Service financial managers gather the
    quantity information by sending data calls to the program managers until it has
    established the interfaces with the accountability systems. According to the
    Policy Office, it would then update the asset data by way of a portal.

    Personnel Training. A rigorous training program should accompany the
    transition to the new CAMS-ME system. The Policy Office contracted with
    KPMG to provide assistance in the development of the training for the DoD
    Components on the update of the initial program valuations and to provide
    assistance as required. The contract requires that the training plan include an
    adequate number of joint valuation updates to demonstrate that the Components
    understand the methodology and are capable of performing the updates. The
    Policy Office also recently added a full-time Government staff member to the
    training effort.

    The Policy Office plans to provide a copy of the completed baseline valuations to
    the Component financial managers at the start of FY 2006 in a CAMS-ME test
    system. The test system would be available for training personnel for
    approximately 1 year. For Increment 1, the Policy Office had proposed training
    25 Policy Office CAMS-ME end users. The Policy Office also needs to provide
    training for personnel representing approximately 1,000 programs and
    headquarters staff on policy and procedural changes and system operation for
    Increment 2. According to the Policy Office, they scheduled testing for
    Increment 2 of CAMS-ME in the third quarter of FY 2006. The Policy Office
    indicated that the testing schedule allows adequate time for training Service
    headquarters staff. However, the PMO staff, which may have to enter quantity
    information, would train using a training system because of the size of the group
    and the schedule.


Baseline Update Success
    Because the Department does not have financial and accountability systems that
    provide accurate and timely information, the Policy Office depended largely on
    the Space and Naval Warfare Systems Center, DFAS, the PMOs, and the
    Financial Management Components of the Services to address the risks involved
    in updating the baseline value of military equipment.

    However, given the challenges to acquire and implement a new system, the Policy
    Officemay not have sufficient time to meet the September 30, 2006, baseline date.


                                        12
    If the Policy Office plans for developing the CAMS-ME Increment 1 are
    unsuccessful, it would have to either update and sustain the valuations manually
    or extend the military equipment valuation deadline.

    Regardless of the methods used to update the asset acquisition cost and quantity
    data, the Policy Office will have approximately 3 months between the June 2006
    “soft” or trial closing and the September 30, 2006, baseline report date to
    accomplish the update. This allows the Policy Office a very limited time during
    the fourth quarter to resolve issues identified during the trial closing.

    Although the Policy Office indicated that the testing schedule of the new system
    allows sufficient time for training headquarters staff, if they delayed the
    development of CAMS-ME Increments 1 and 2, they would have to perform
    much of the training for the headquarters staff and the PMO staff on systems and
    processes that may not be fully developed or tested.


Management Actions
    During the engagement, we prepared and submitted to the Policy Office, an issue
    paper that discussed the baseline valuation update. Since we provided
    management with the issue paper, management has experienced “down time” in
    project development and has revised the schedule for implementing the military
    equipment update methodology. Management’s revision to the program timeline
    does not change the requirements of the recommendations.


Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. As a result of management comments, we revised
    Recommendation B.2.b. to clarify our intention that an audit trail external to the
    financial systems may also support the financial statements.

    The Director, Acquisition Resources and Analysis provided comments on
    Recommendation B.1. that included comments from the Deputy Director of the
    Property and Equipment Policy Office. Comments on Recommendation B.2.
    included comments from the Under Secretary of Defense for Acquisition,
    Technology, and Logistics and the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer.

    B.1. We recommend that the Deputy Director of the Property and
    Equipment Policy Office in the Office of the Under Secretary of Defense for
    Acquisition, Technology, and Logistics:

         a. Develop specific milestones in cooperation with the Space & Naval
    Warfare Systems Center, Defense Finance and Accounting Service, the




                                         13
Program Management Offices, and the DoD Component Financial
Management Offices that would address the risks involved in updating the
baseline value of military equipment.

Management Comments. The Director concurred, stating that the Policy Office
uses a comprehensive Project Management Plan with milestones to control and
monitor each increment of the project. The Director stated that the Policy Office
also has a plan that provides for communicating project status by reporting
metrics and missed milestones and provides escalation procedures for addressing
the causes of project delays.

       b. Report to the Under Secretary of Defense for Acquisition,
Technology, and Logistics and the Under Secretary of Defense
(Comptroller/Chief Financial Officer) the status of the milestones on a
recurring basis.

Management Comments. The Director concurred, stating Senior USD (AT&L)
and the USD (Comptroller)/Chief Financial Officer officials receive periodic
reports on project status. The Director stated that this project is one of the
Comptroller’s focus areas and is included in that comprehensive reporting
process.

B.2. We recommend that the Under Secretary of Defense for Acquisition,
Technology, and Logistics and the Under Secretary of Defense
(Comptroller)/Chief Financial Officer:

       a. Use the Property and Equipment Policy Office’s status reports to
assess whether the Department is likely to meet its goal of a military
equipment baseline value, supported by an integrated system to update these
values, by September 30, 2006.

Management Comments. The Director partially concurred, stating that nothing
to date indicates the project will not meet its milestone dates as described in the
Project Management Plan. She stated that the normal project risks exist and are
reported on but do not provide sufficient reason to rebaseline the program. The
Director stated that the Policy Office holds Project Management Plan status
meetings with the internal management and delivery team and with
representatives from the organizations involved in the military equipment
valuation process. The Director further stated that the Executive Steering Group,
which is composed of executive level representatives from the Military
Departments’ finance, acquisition, and logistics communities; DFAS; and the
DoDIG, participates in status briefings on all aspects of the military equipment
project.

Auditor Response. Although the Director only partially concurred with the
recommendation, actions taken by the Policy Office satisfy the intent of the
recommendation. Specifically, in the Management Actions Section of Finding B
of this report, we state that during the engagement we prepared an issue paper that
discussed updating the baseline valuation and submitting it to the Policy Office.
Since we provided the issue paper, management has experienced “down time” in
project development and has revised the schedule for implementing the military


                                    14
equipment update methodology. Further, although the Director stated that
nothing to date indicates the project will not meet its milestone dates, she
acknowledged in her response to recommendation B.1.a, that the program risks
could “require continuation of the manual baseline update process through 2006,
an enormous and expensive undertaking.” No further comments are required.

        b. Revise the baseline date until the Department has implemented a
fully tested and integrated system, including the necessary interfaces and
portals, that is capable of updating and sustaining the baseline value of
military equipment or can otherwise adequately support the financial
statements.

Management Comments. The Director nonconcurred, stating that the date for
establishing the military equipment baseline is a Departmental goal and one of
four focus areas for improving financial management. The Director further stated
that this recommendation conflicts with the previous recommendation for the
Department to assess whether it can meet the deadline. The Director
acknowledged that integrated systems are necessary for the efficient accumulation
of accurate military equipment information, but does not believe that full systems
integration is required to achieve compliance with Federal accounting standards.
The Director stated that DoD will have to rely on less than optimum techniques to
meet its financial reporting objectives and for obtaining an opinion on military
equipment information included in its annual financial statements. The Director
stated that the recommendation is not in line with best practices or Federal policy.
The Director stated that the incremental development approach of the CAMS-ME
is in line with the Federal policy and best acquisition practices as each increment
of CAMS-ME will be fully tested with the operational assessments and test and
evaluation conducted by the Joint Interoperability Test Command.

Auditor Response. Although the Director nonconcurred with the
recommendation, actions taken by the Policy Office satisfy the intent of the
recommendation. Since we provided management with the issue paper on the
baseline valuation update, management has experienced “down time” in project
development and has revised the schedule for implementing the military
equipment update methodology.

We disagree with management’s assertion that the audit recommendation to
revise the baseline date is in conflict with the audit recommendation to review
status reports for monitoring timely project completion. Both recommendations
focus on the establishment of realistic timeframes to monitor project completion.

Further, the Director’s statement that the recommendation appears to take an all
encompassing approach to system development is inaccurate. Our report and
recommendation do not take exception to the incremental approach to system
implementation. Instead, the recommendation would be better interpreted to
agree with OMB Circular A-130, which supports the audit position to establish a
realistic timeframe, that is, to assess whether the Department can meet its
September 30, 2006, baseline date and revise if it cannot meet the date. It may
take more time to “use components that can be fully tested or prototyped prior to




                                    15
production,” but the Department should expect that the results would be more in
line with the guidance the Director has referenced. No further comments are
required.




                                   16
            C. Accounting for Modifications to
               Military Equipment
            In its baseline valuation model, the methodology the Policy Office used to
            capitalize and depreciate modification costs was not in accordance with
            generally accepted accounting principles. The methodology averaged the
            cost of modifications across all of the planned end items and assumed that
            the PMOs had modified all items. In addition, the valuations capitalized
            and depreciated the modification beginning with the period the PMOs
            placed the first end item in service, which may not be the period in which
            the expenditure for the modification occurred. As a result, the baseline
            valuation model incorrectly estimated the net book value of military
            equipment programs with modifications.


Modification Capitalization and Depreciation Policy
     SFFAS No. 6. SFFAS No. 6 requires that costs for modifications that either
     extend the useful life of existing general property, plant, and equipment or enlarge
     or improve its capacity be capitalized and depreciated or amortized over the
     remaining useful life of the associated general property, plant, and equipment.

     SFFAS No. 6, as amended by SFFAS No. 23 permits the use of a composite or
     group depreciation methodology. The composite methodology as defined in
     SFFAS No. 23 is a method of calculating depreciation that applies a single
     average rate to a number of diverse assets that have dissimilar characteristics and
     services lives. The group methodology is a method of calculating depreciation
     that applies a single, average rate to a number of identical assets having similar
     characteristics and service lives.

     DoD Financial Management Regulation. The DoD FMR, volume 4, chapter 6,
     states that modification costs should be individually capitalized and depreciated
     over the applicable DoD standard recovery period because DoD policy recognizes
     that the Department modifies substantially- or fully-depreciated assets.

     Proposed Business Rule on Modifications, Modernizations, and
     Upgrades. The Policy Office’s proposed business rule on modifications,
     modernizations, and upgrades (hereafter referred to as modifications) states that
     modification costs may be capitalized using either of the following methods.

            •   For modifications that extend the useful life of an end item, capitalize
                the full cost separately and depreciate the cost over the useful life of
                the modification.

            •   For modifications that enlarge or improve the capacity but do not
                extend its useful life, capitalize the cost by:




                                          17
                    − Adding the modification cost to the end item’s net book value
                      and depreciating the resulting cost over the remaining useful
                      life of the end item; or

                    − Capitalizing the modification as a separate item and
                      depreciating the modification over the lesser of the life of the
                      modification or the remaining useful life of the end item.
                      When a modification is capitalized separately from an end
                      item, the modification should be linked to the end item
                      (parent-child relationship) in the property accountability
                      system.


Modification Capitalization and Depreciation
     Accounting Approaches. In accordance with generally accepted accounting
     principles, the DoD FMR, and the proposed business rule, we considered two
     possible approaches to accounting for modifications that enlarged or increased the
     capacity of an end item but did not extend its useful life. Those approaches were:

            •   Capitalization per end item, and

            •   Capitalization as a separate item.

            Capitalization per End Item. Capitalizing cost per end item allocates
     the modification costs across all associated end items in service. This approach
     adds the modification costs to the net book value of the individual end item and
     depreciates the costs over the remaining useful life of the end item. This
     approach provides the most accurate reflection of historical cost and complies
     with SFFAS No. 6 and the proposed business rule on modifications.

             Capitalization as a Separate Item. Modification cost capitalized as a
     separate item captures the modification costs and depreciates the cost over the
     lesser of the life of the modification or the average remaining useful lives of the
     related end items. This approach most closely agrees with the guidance in the
     DoD FMR.

             Baseline Valuation Model. In contrast to SFFAS No. 6 and the DoD
     FMR, the baseline valuation model the Policy Office used first added the total
     modification costs as a single value to the program’s original acquisition costs in
     order to calculate the total estimated program cost. The baseline valuation model
     then calculated the estimated cost per end item by dividing the total estimated
     program cost by the number of planned end items. As a result, the cost of each
     end item included a portion of the modification costs, regardless of when the
     modifications occurred. Likewise, the baseline valuation model began
     depreciation of the modification cost when the PMOs placed the first end item in
     service, which may not have been the period in which the modification
     expenditure occurred.




                                          18
Baseline Values
     The baseline valuation method not only failed to comply with guidance, it
     resulted in an incorrect estimated net book value, and had the following additional
     drawbacks.

            •   Prior to the date of the actual modification expenditures, the estimated
                cost per end item and the depreciation expense were overstated
                because the model incorrectly spread the estimated costs and
                expenditures for modifications over all end items, including those that
                had not been modified. For example, the PMO first incurred
                modifications costs for the AH-1W Helicopter Program in FY 1996
                with a cost of $63,296,143. Although the program did not incur
                modification costs before FY 1996, the baseline valuation model
                incorrectly capitalized $49,562,074 in cumulative modification costs
                and expensed $7,882,161 in accumulated depreciationas of FY 1995.

            •   Costs allocated to items disposed of prior to the actual expenditures
                caused the depreciation base and expense for disposed items to be
                overstated. As a result, the depreciation base and expense of all
                remaining end items were misstated.

            •   Work-in-process may have been miscalculated since the average
                estimated cost per end item incorrectly included the modification
                costs.


Management Actions
     On April 8, 2005, the Deputy Director of the Property and Equipment Policy
     Office requested that the Services comment on the office’s position paper titled,
     “Baseline Valuation Methodology Position Paper: Modifications, Modernizations,
     Upgrades, and Improvements.” The Policy Office provided a copy of the position
     paper to us. The position paper proposed policy to account for modifications
     during the baseline valuation under the following three scenarios:

        •   Modifications that can be linked to specific end items,

        •   Modifications that can be linked to a specific program or programs, and

        •   Modifications that relate to a type of asset but the cost of the modification
            cannot be linked to specific assets or programs.

     The Office of Inspector General has reviewed the revised policy and has provided
     comments. If the policy office accounts for modifications using the methodology
     discussed in its revised policy, it should adequately resolve the issues discussed in
     this finding. We will revisit this issue when the Department has implemented the
     revised policy.




                                          19
Recommendation and Management Comments
    C. We recommend that the Deputy Director of the Property and Equipment
    Policy Office in the Office of the Under Secretary of Defense for Acquisition,
    Technology, and Logistics revise the baseline valuation methodology to use
    the capitalization per end item or capitalization as a separate item approach,
    or both, to capitalize and depreciate military equipment modifications.

    Management Comments. The Director, Acquisition Resources and Analysis
    provided comments that included comments from the Deputy Director of the
    Property and Equipment Policy Office. The Director concurred, stating that the
    Policy Office revised the Military Equipment Modifications Policy Position Paper
    to address three scenarios: Modifications can be linked to specific end items;
    Modifications can be linked to a specific program or programs but not specific
    end items; and Modifications relate to a type of assets (such as ships), but the
    information is not available to link the cost of modifications to affected programs
    or specific end items.




                                        20
           D. Waivers to Military Equipment
              Valuation
           The Policy Office methodology appropriately used a waiver process to
           exclude programs that did not meet the definition for military equipment.
           However, we could not verify the validity of 12 of the 29 waivers in our
           sample because the program managers did not include adequate
           supporting documentation to allow independent assessment. Without
           verifying the validity of the waivers, the Policy Office could not ensure
           that the military equipment universe included all valid programs and
           excluded all invalid programs. Further, depending on the validity of the
           waiver, the military equipment valuation on the financial statements could
           be overstated or understated.


Policy on Omissions and Misstatements
    Statement of Financial Accounting Concepts. Financial Accounting Standards
    Board, Statement of Financial Accounting Concepts No. 2, “Qualitative
    Characteristics of Accounting Information,” May 1980, states that an omission or
    misstatement of accounting information is material if that information, in the light
    of surrounding circumstances, makes it probable that the judgment of a
    reasonable person relying on the information would have been changed or
    influenced by the omission or misstatement.


Support for Waivers
    Military Equipment Valuation Waivers. The Policy Office used the term
    “waiver” to define the intentional decision to exclude a potential military
    equipment program from valuation. Initially, the Policy Office identified all
    potential military equipment programs. As they obtained more knowledge about
    the programs, they excluded those that met the requirements for waiver from the
    process of valuing military equipment for the financial statements. As of
    November 30, 2004, the Policy Office had reviewed 456 programs. Of those
    456 programs, the Policy Office had granted waivers for 255. The Policy Office
    classified those waivers by type as illustrated in the Table in Appendix D. In
    comparison, as of the same date, the number of military equipment programs that
    the Policy Office had valued totaled 201.




                                         21
As of February 28, 2005, the Policy Office had completed 583 programs, with
379 of those programs or portions of the programs granted a waiver status. The
following chart shows a breakdown of the 379 waivers by Service. The waiver
total for the Army, Navy, Air Force, and Marines, was 109, 59, 148, and 63,
respectively.

                            EQUIPMENT VALUATION WAIVERS

                     160
                     140
 NUMBER OF WAIVERS




                     120
                     100
                     80                           148
                     60     109
                     40
                                     59                           63
                     20
                       0
                           ARMY     NAVY     AIR FORCE        MARINES


Waiver Verification. In our sample of 48 completed military equipment
valuation programs and subprograms, the program managers had issued
29 waivers for programs and portions of programs. For 17 of the waivers, the
program manager provided adequate documentation, which verified that those
waivers were valid. However, 12 of the 29 waivers lacked sufficient support to
allow an independent party or reasonable person to determine the validity of
granting the waiver.

In particular, waiver supporting documentation appears to be deficient for “No
Book Value” and “Software” waiver categories. The program manager did not
provide an explanation for the lack of documentation. For the “No Book Value”
waivers, DoD should have documented that it has fully depreciated the
equipment. For the waivers relating to internal use software, DoD should have
explained why it valued the software within the military equipment separately as
internal use software, as opposed to military equipment, if DoD considered the
software an integral part of the item. However, the general statement that the
valuation followed Federal Accounting Standards Advisory Board Standard 10
was insufficient.




                                      22
                      Waivers without Adequate Documentation

          Type            No. of        Description
                          Waivers

          No Book         8             Program where the net book values of the end
          Value                         items is zero (e.g. fully depreciated)

          Software        2             Program where SFFAS 10 applies and the end
                                        item is not considered military equipment.

          Other           1             Program is a study program, in perpetual
                                        RDT&E,* or end item is not considered
                                        military equipment.

          Temporary       1             Program is in the RDT&E stage.

           *RDT&E (Research, Development, Test and Evaluation)


Waiver Effect
    Without verifying the validity of the waivers, the Policy Office could not ensure
    that the military equipment universe included all valid programs and excluded all
    invalid programs. Further, depending on the validity of the waiver, DoD may
    overstate or understate the military equipment value on the financial statements.
    Specifically, if a military equipment program had erroneously been waived, then
    the military equipment program would not be valued and the military equipment
    line item of the financial statement would be understated. If the Policy Office had
    valued a military equipment program when it should have granted a waiver, then
    the military equipment line item of the financial statement would be overstated.
    Depending on the materiality of the omission or misstatement of military
    equipment accounting information related to a waiver, the omission or
    misstatement could change or influence the judgment of a reasonable person
    relying on the information. Consequently, the accuracy of the financial statement
    information would be directly dependent on the accuracy of the waiver.


Recommendation, Management Comments, and Audit
  Response
    D. We recommend that the Deputy Director of the Property and Equipment
    Policy Office in the Office of the Under Secretary of Defense for Acquisition,
    Technology, and Logistics take action to verify the validity of equipment
    valuation waivers before acceptance, and accept the waiver only if the
    program managers have provided adequate supporting documentation to
    allow independent verification.




                                         23
Management Comments. The Director, Acquisition Resources and Analysis
provided comments that included comments from the Deputy Director of the
Property and Equipment Policy Office. The Director partially concurred, stating
that because of the complexity of internal use software, her office and the PMO
jointly reviewed program descriptions and determined whether to waive the
programs. The Director stated that her office believes that this process was
sufficient for verifying the validity of waivers for internal use software. The
Director stated that for programs waived because the associated end item met the
criteria for classification as “fully depreciated,” her office reviewed the latest
placed-in-service dates provided by the PMO and accepted the waiver if the dates
provided supported this determination. The Director stated that her office did not
observe the supporting documentation in support of the placed-in-service date,
but advised program managers of the need to maintain documentation in support
of their waiver determination for subsequent independent verification.

Auditor Response. The Director’s comments are nonresponsive and do not
address the two key areas of adequate supporting documentation and independent
verification. Further, regarding internal use software, it is precisely because the
area is complex that supporting documentation should be adequate and allow for
independent verification. Regarding the “fully depreciated” category, the
documentation should support the determination that a $0 value assertion was
appropriate. We request that the Director reconsider her position on supporting
validity of waivers and provide comments on the final report.




                                    24
           E. Program Management Office
              Attestation
           The Policy Office used a questionnaire that provided no assurance that the
           program manager supported the valuation amounts that the Policy Office
           had calculated for the military equipment programs. The questionnaire
           provided no assurance because the Policy Office did not require the
           program managers to sign an attestation to affirm their concurrence with
           the accuracy and validity of the military equipment valuation data for their
           program. In addition, any change in program management staff that
           supplied the data, might raise the issue of ownership and responsibility for
           the accuracy of the data used in the valuation. Without an attestation that
           establishes accountability for accuracy, the military equipment valuation
           amount may not be reliable.


Program Manager Assurance
    The Policy Office developed a questionnaire that provided no assurance that the
    program manager supported the valuation amounts that the Policy Office had
    calculated for the military equipment programs. The Policy Office used the
    questionnaire to collect military equipment program data from the program office.

            Data Collection. The questionnaire required the program office to
    provide responses to 99 questions. In addition, it required them to provide the
    name and contact information for the program manager and a point of contact. As
    part of the data collection process, representatives of the Policy Office and their
    contractor, KPMG, would meet with personnel from each program to provide an
    overview of the military equipment valuation project, review the data
    questionnaire in depth, and answer questions. Tasking the program manager to
    complete the entire questionnaire would require the program manager or his staff
    to devote time to the program valuation project and might limit their ability to
    perform their regularly assigned tasks. Consequently, the Policy Office stated
    that they would populate the questionnaire with all available data before meeting
    with program office personnel to minimize the impact of the data collection
    effort. In addition, the general instructions for the program questionnaire
    included the following statement: “This data collection instrument will be
    pre-populated to the extent information is available prior to the team conducting a
    Program Office in-brief on the Military Equipment Valuation Project.”

            Responsibility and Ownership of Data. Responsibility and ownership
    of the program data the program offices provided for the military equipment
    valuation was not always clear. In addition, any change in program management
    staff that supplied the data, would raise the issue of who was responsible for the
    accuracy of the data used in the valuation.




                                        25
Attestation Concurrence
    The Policy Office had not required the program managers to sign an attestation to
    affirm their concurrence with the accuracy and validity of the military equipment
    valuation data for their program. At the time of our audit fieldwork in
    November 2004, the Policy Office had completed a total of 456 programs without
    an attestation.

    When the Policy Office clarifies the accountability for the data and requires the
    responsible party to attest to the accuracy and validity of the information, the
    clarification might improve the accuracy and validity of the information. The
    underlying assumption is that a program manager would not want the reviewer to
    hold them accountable for data that is not accurate and valid. Therefore, the
    program manager will expend the necessary time and effort to ensure the
    accuracy of the data.


Conclusion
    Without accountability, the military equipment valuation amount may not be as
    reliable as a military equipment valuation amount with an attestation. The
    requirement to prepare an attestation implies that there will be more scrutiny of
    the data before the program manager will provide his concurrence. A signed
    attestation is a relatively low-cost effort that will increase the likelihood that the
    data will be accurate and valid.


Management Actions
    During the engagement, we discussed the attestation issue with the Policy Office.
    The Policy Office acknowledged the validity of our concern and subsequently
    revised the methodology to include a program management attestation. However,
    the revised methodology did not include an attestation to confirm the actual
    amount at which the program was valued. The memorandum included the
    following statement:
            We affirm that we have provided all available and known documents in
            support of deriving the military equipment values for the . . . . We
            further understand that we will be responsible for defending the
            military equipment values assessed based on the supporting
            documentation we provided.

    Affirming the availability of documents and defending the military equipment
    values based on the supporting document is not the same as agreeing to the
    accuracy and validity of the valuation amount for the program. Specifically, if the
    pre-populated questionnaire, the calculations, or the documents contain errors, the
    valuation may be incorrect but adequately documented. The attestation should
    affirm concurrence with the accuracy and validity of the military equipment
    valuation amount for the program.


                                            26
Recommendation, Management Comments, and Audit
Response
    E. We recommend that the Deputy Director of the Property and Equipment
    Policy Office in the Office of the Under Secretary of Defense for Acquisition,
    Technology, and Logistics require program managers to sign an attestation
    to affirm their concurrence with the accuracy and validity of the military
    equipment valuation amount for their program.

    Management Comments. The Director, Acquisition Resources and Analysis
    provided comments that included comments from the Deputy Director of the
    Property and Equipment Policy Office. The Director partially concurred, stating
    that for program valuations completed before December 31, 2004, her office
    obtained program manager verbal concurrence with the accuracy of the
    information. She stated that for program valuations completed after
    December 31, 2004, her office obtained program manager written concurrence
    with the accuracy of the information. The Director stated that her office believes
    that because the program managers provided the information for the military
    equipment valuation, they should assert to that information rather than attest to its
    accuracy. The Director stated that program managers change over the life of a
    program and current program managers are limited in their ability to assert to
    amounts representing transactions that occurred prior to their tenure.

    Auditor Response. The Director’s comments are nonresponsive. Although the
    Director stated that she had obtained “verbal concurrence” from program
    managers in reference to the accuracy of information provided for programs
    valued prior to December 31, 2004, that method of concurrence does not provide
    an audit trail. In addition, as stated in the Management Actions section of
    finding E, affirming the availability of documents and defending the military
    equipment values based on the supporting document is not the same as agreeing
    to the accuracy and validity of the military equipment valuation amount for the
    program. An attestation should affirm concurrence with the accuracy and validity
    of the military equipment valuation amount for the program. Further, it is
    because program managers change over the life of the program, that the
    attestation is so important. We request that the Director reconsider her position on
    obtaining signed attestations as to the accuracy of the information provided by
    program managers, and provide comments on the final report.




                                         27
Appendix A. Scope and Methodology
   We reviewed the Policy Office baseline valuation methodology to develop a
   complete military equipment universe, calculate program valuations, and
   appropriately assign waivers. Specifically, we reviewed the reasonableness and
   reliability of the numerous sources used to develop the military equipment
   universe that had expanded to 1,074 programs as of February 28, 2005. We
   reviewed the reasonableness of the valuation model, the approach the Policy
   Office used to obtain and incorporate data elements, including the proposed
   baseline update solution, and the 10 Policy Office-proposed business rules, which
   they used as a basis for the valuations. We reviewed the waiver criteria that the
   Policy Office used to exclude programs from valuations. We held discussions
   with key personnel from the Policy Office and its contractor, KPMG, and
   attended program review debriefings conducted by KPMG with some PMOs.

   We judgmentally selected and reviewed 16 of the 326 programs that KPMG had
   reviewed as of August 27, 2004. We later judgmentally selected and reviewed
   six additional programs from one of our site visits that occurred in September
   2004. Therefore, in total we judgmentally selected and reviewed 22 programs.
   To facilitate their program valuations, KPMG had further divided programs, when
   possible, into a subset of subprograms. KPMG would then calculate the
   valuations and grant waivers on a subprogram level. Therefore, in some instances
   a single program had multiple subprogram valuations and multiple subprogram
   waivers. Of the 22 programs we judgmentally selected, 8 were further divided
   into subprograms. As a result, we reviewed a total of 48 programs and
   subprograms. Of the 48 programs and subprograms, the Policy Office had
   completed a valuation for 19 and granted waivers for 29. The Office of Inspector
   General with the assistance of the Government Accountability Office reviewed
   the reasonableness and consistency of the 19 valuations and related supporting
   documentation. Specifically, we examined valuation acquisition and disposal
   dates, useful lives, total estimated program costs through FY 2006, and total
   estimated expenditures through the valuation completion date. We reviewed the
   reasonableness and consistency of the 29 waivers and related supporting
   documentation.

   Scope Limitations. We performed this audit from October 2004 through
   March 2005 in accordance with generally accepted government auditing
   standards. Our scope was limited to agreed-upon procedures that did not include
   tests of management controls. Therefore, we limited our scope and judgmentally
   selected and reviewed 48 programs and subprograms to evaluate the effectiveness
   of the proposed methodology to value military equipment. During the program
   and methodology reviews we identified process deficiencies and provided
   three issue papers to the Policy Office.

   Use of Computer-Processed Data. We relied on computer-processed data
   provided directly from the Policy Office and KPMG that was extracted from
   numerous DoD financial, acquisition, and logistics systems to evaluate sample
   program valuations and waivers. Specifically, we used the computer-processed
   data to review program valuation calculations, determine supporting



                                      28
documentation inadequacies, and analyze waiver appropriateness. We did not
determine the reliability of the computer-processed data.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the Defense Financial Management high-risk area.




                                    29
Appendix B. Prior Coverage
    During the last 5 years, the Government Accountability Office (GAO),

    the Department of Defense Inspector General (DoD IG), and U.S. Army Audit
    Agency have issued eight reports discussing military equipment. Unrestricted
    GAO reports can be accessed over the Internet at http://www.gao.gov.
    Unrestricted DoD IG reports can be accessed at
    http://www.dodig.osd.mil/audit/reports.


GAO
    Report No. GAO 04-910R, “Financial Management: Further Actions Are Needed
    to Establish Framework to Guide Audit Opinion and Business Management
    Improvement Efforts at DoD,” September 20, 2004

    Report No. GAO 04-615, “DoD Business Systems Modernization: Billions
    Continue to Be Invested with Inadequate Management Oversight and
    Accountability,” May 2004


DoD IG
    DoD IG Report No. D-2004-092, “Corps of Engineers Equipment Reporting on
    Financial Statements for FY 2003,” June 22, 2004

    DoD IG Report No. D-2003-117, “Systems Inventory to Support the Business
    Enterprise Architecture,” July 10, 2003

    DoD IG Report No. D-2001-011, “Prior Period Adjustment to Remove National
    Defense Property, Plant, and Equipment,” November 16, 2000

Army
    U.S. Army Audit Agency Report No. A-2003-0139 “National Defense Equipment
    Reporting,” February 6, 2003

    U.S. Army Audit Agency Report No. A-2002-0238-FFG “Audit of The Army’s
    FY 01 General Fund Financial Statements-General Equipment,” March 13, 2002

    U.S. Army Audit Agency Report No. AA-2001-225, “Audit of the Army’s
    Inventory and Control of Military Equipment,” April 6, 2001




                                      30
Appendix C. Glossary of Technical Terms
363 Report. The 363 Report is a compilation of individual Military Service reports
reflecting the inventory of major end items of military equipment, as required by the
National Defense Authorization Act for Fiscal Year 2000, Public Law 106-65,
Section 363. The Law required this report as of September 30, 1999.

Accountability System. The accountability system is primarily used by logisticians to
track military equipment and products. The system may also track the condition and
location of each item.

Business Enterprise Architecture. A blueprint to guide and constrain investments
within DoD organizations, operations, and systems as they relate to or impact business
operations. Information Technology (IT) will provide the basis for the planning,
development, and implementation of business management systems that comply with
Federal mandates and requirements, resulting in accurate, reliable, timely, and compliant
information for DoD staff.

CAMS-ME. The Capital Asset Management System-Military Equipment is a business
system responding to business opportunities, not warfighting threats. The capability
would operate in a business environment tied to contract award production, end item
receipt and acceptance, and personal property administration.

Capitalization. The Statement of Federal Financial Accounting Statement No. 23
requires the capitalization and depreciation of all property, plant and equipment
designated as military equipment and meeting certain criteria. The criteria are as follows:
(1) useful life exceeding 2 years, (2) not intended for sale, and (3) exceeds capitalization
threshold (in DoD, that threshold is $100,000).

End Item. Final combinations of component parts or materials that is ready for its
intended use (e.g., ship, tank, aircraft, mobile machine shop, etc.). For the purpose of this
document, an end item is synonymous with asset.

Enterprise Architecture. Enterprise architecture is the explicit description and
documentation of the current and desired relationship among business and management
processes and information technology. The enterprise architecture describes the “current
architecture” and “target architecture” and provides a strategy that will enable an agency
to transition from its current state to its target environment.

Expenditure. An expenditure is a charge against available funds evidenced by voucher,
claim, or other document approved by a competent authority. Expenditure represents the
actual payment of funds.

GAO Defense Acquisitions: Assessments of Major Weapon Programs. GAO’s goal
for issuing the report, “GAO Defense Acquisitions: Assessments of Major Weapon
Programs,” is to provide Congressional and DoD decision makers with an independent,
knowledge-based assessment of selected defense programs that identifies potential risks




                                             31
and offers an opportunity for action when a program’s objectives deviate from the best
practice. The report can also highlight those programs that employ practices worthy of
emulation by other programs. GAO plans to update and issue this report annually.

Government-Furnished Material. Government-furnished material is Government
property which may be incorporated into or attached to an end item to be delivered under
a contract or which may be consumed in the performance of a contract. It includes raw
and processed material parts, components, assemblies, and small tools and supplies.

Government-Furnished Property. Government-furnished property is acquired directly
by the Government and subsequently made available to the contractor.

Improvement. An improvement is a program enhancement that increases the future
service potential of the asset and should be capitalized. Improvements include
expenditures for a physical improvement to an existing capital asset such as additions and
major alterations that are intended to improve performance or increase useful life.

Legacy Systems. Legacy systems are those database systems in existence and either
deployed or under development at the start of a modernization program. All legacy
systems would be affected by modernization to a greater or lesser extent. Some systems
become transition systems before they are retired.

Midterm Solution. The midterm solution is a proposed system approach for the
valuation of military equipment. The midterm solution leverages existing systems and
processes to maintain the baseline valuations, manage the work-in-process account, and
calculate the costs for military equipment acquired after September 30, 2006.

Military Equipment. Military equipment consists of tangible assets that are owned by
DoD Components and meet the following criteria: (1) have an estimated useful life of
2 or more years, (2) are not intended for sale, and (3) are intended to be used or available
for use by DoD Components in the performance of military missions to include
equipment used in training for such missions. Included are certain assets that are
components of weapons systems (e.g., aircraft pods) and assets that support that system
(e.g., flight line equipment).

Modification. A modification is a change to a descriptive and governing characteristic
of an item.

P-1 Budget Report. The P-1 Budget Report is provided annually to the DoD oversight
committee of the Congress coinciding with transmittal of the President’s Budget. The
P-1 line items represent funding for active procurement programs per budget year.

Program. A program is: (1) A defined effort funded by research, development, test, and
evaluation or procurement appropriations with the express objective of providing a new
or improved capability in response to a stated mission need or deficiency. (2) A major,
independent part of a software system. (3) A combination of program elements designed
to express the accomplishment of a definite objective or plan.




                                             32
Select Acquisition Report. A Select Acquisition Report is a standard, comprehensive,
summary status report on major defense acquisition programs, acquisition category 1,
required for periodic submission to the Congress. It includes key cost, schedule, and
technical information.

Work-in-Process. Work-in-process refers to products that are being manufactured or
fabricated but are not yet complete. It consists of the costs of direct materials, direct
labor, direct purchased services, and indirect costs, including general and administrative
costs, used in producing an end item.

Simplified Acquisition Threshold. For DoD, the simplified acquisition threshold refers
to the $100,000 threshold, except for acquisitions of supplies or services that, as
determined by the head of the agency, are to be used to support a contingency operation
or to facilitate defense against or recovery from nuclear, biological, chemical, or
radiological attack.




                                            33
Appendix D. Waiver Types

     Waiver Types and Quantities as of November 30, 2004
Code Type           No. of    Description
                    Waivers

C     Classified    1         Program where details on funding, end items, etc.
                              cannot be obtained.

D     Deactivated   10        Program’s end items are anticipated to be fully
                              deactivated by 9/30/06.

E     Entity        8         End items produced would be reported by another
                              entity, because of funding or predominance of use.

F     FMS           5         Program is entirely foreign military sales.

L     Life          6         Useful life is estimated at less than 2 years.

N     No Book       33        Program where the net book value of the end items
      Value                   is zero (e.g. fully depreciated).

O     Other         32        Program is a study in perpetual RDT&E or end item
                              is not considered military equipment.

P     Price         53        Program where the cost per end item is less than the
                              capitalization threshold of $100,000.

R     Real          1         Program is considered to be real
      Property                property/infrastructure under SFFAS 6.

S     Software      34        Program where SFFAS 10 applies and the end item
                              is not considered military equipment.

T     Temporary     53        Program is in the RDT&E stage.

None Multiple       19        Programs with two or more of the identified codes.




                                    34
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Acquisition Resources and Analysis
  Deputy Director, Property and Equipment Policy Office
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Government Accountability Office

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations




                                          35
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        36
Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics
Comments




                       37
Final Report
 Reference




Revised




               38
     Final Report
      Reference




     Revised




39
40
     Final Report
      Reference




     Revised




41
42
43
44
45
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Barbara A. Sauls
Alice F. Carey
Kenneth A. Weron
Yalonda N. Blizzard
James F. Friel
Lidet K. Negash
Brian R. McNamara
Nathan R. Witter
Calvin O. King
Davita N. Pray
Kari Coates

Government Accountability Office Team Members

James D. Berry Jr.
Kristi Karls
